                    AUDIT OF SELECTED SBA COMPUTER
                       GENERAL SUPPORT SYSTEMS
                       AUDIT REPORT NUMBER 4-41

                                 SEPTEMBER 10, 2004




This report may contain proprietary information subject to the provisions of 18 USC 1905 and
must not be released to the public or another agency without permission of the Office of
Inspector General.
                       U.S. SMALL BUSINESS ADMINISTRATION
                           OFFICE OF INSPECTOR GENERAL
                               WASHINGTON, D.C. 20416

                                                               AUDIT REPORT
                                                       Issue Date: September 10, 2004
                                                       Number: 4-41



To:            Stephen D. Galvan
               Chief Information Officer



From:          Robert G. Seabrooks,
               Assistant Inspector General for Auditing

Subject:       Audit of Selected SBA Computer General Support Systems

       Attached is the public version of the audit report on Selected SBA General Support
Systems issued by Cotton & Company LLP. The report was issued as LIMITED-OFFICIAL-
USE. Distribution of the full report requires specific authorization by the SBA Office of Chief
Information Officer (OCIO) or SBA Office of the Inspector General (OIG).

        The auditors reviewed the selected general support systems settings and configurations
against standards issued by the National Institute of Standards and Technologies (NIST),
National Security Administration (NSA), Center for Internet Security (CIS) and the
manufacturer(s) guidelines.

        The Federal Information Security Management Act (FISMA) requires each agency to
develop minimally acceptable system configuration requirements and ensure compliance with
those requirements. Systems that are implemented with secure configurations against a standard
benchmark have less vulnerabilities and are better able to thwart network attacks.

       The auditors concluded that the selected SBA general support systems and components
reviewed contained a number of vulnerabilities which increased the potential for security
exposures to exist and go undetected. Additionally, SBA’s general support systems and
components did not follow a standard system configuration. This generally occurred because
SBA had not implemented standard configurations for its general support computer operating
systems and components. Nor had SBA ensured that changes to the system configurations were
made in a controlled manner. As a result, SBA’s general support computer operating systems
were potentially vulnerable to unauthorized utilization or inefficient operation.
       SBA was in general agreement with the findings and recommendations, but did not
provide a written response to the draft audit report. Actions to address the finding and
recommendations will be evaluated during the audit resolution process.

      The findings in this report are based on the auditors’ conclusions and the report
recommendations are subject to review, management decision and action by your office in
accordance with existing Agency procedures for follow-up and resolution.

       Please provide us your proposed management decisions on October 31, 2004 on the
attached SBA Forms 1824, Recommendation Action Sheet. If you disagree with the
recommendations, please provide your reasons in writing.

       Should you or your staff have any questions, please contact Jeffrey R. Brindle, Director,
Information Technology and Financial Management Group at (202) 205-7490.

Attachments
                                     September 9, 2004




Subject:      Audit of Selected Computer General Support Systems and Controls at the U.S.
              Small Business Administration



We were engaged to conduct a performance audit of selected general support systems and their
associated controls at the U.S. Small Business Administration (SBA). We utilized various best
practices from National Institute of Standards and Technology (NIST), National Security Agency
(NSA) and Center for Internet Security (CIS) as criteria for this project. The objective of our
work was not to provide assurance on overall internal control. Consequently, we do not provide
an opinion on internal control.

This report is intended solely for the information and use of SBA management. We would like
to express our appreciation to the SBA representatives who assisted us in completing our work.
They were always courteous, helpful, and professional.

If you have any questions or comments about this report, please contact me at your convenience.
Thank you.

Very truly yours,

COTTON & COMPANY LLP

         /S/
Loren Schwartz, CPA, CISA
 PERFORMANCE AUDIT OF SELECTED COMPUTER GENERAL SUPPORT SYSTEMS
      AND CONTROLS AT THE U.S. SMALL BUSINESS ADMINISTRATION

                                  EXECUTIVE SUMMARY

BACKGROUND

This report specifically covers our review of selected computer general support systems
including servers, routers and firewalls at SBA headquarters. These items were selected, because
they support applications deemed critical to SBA’s operations.

OBJECTIVE, SCOPE, AND METHODOLOGY

The overall objective of our audit was to review existing information security controls and
identify weaknesses impacting certain components of the general support systems. Our review
was not intended to result in the issuance of an opinion, and we do not issue an opinion as
defined by the American Institute of Certified Public Accountants. The individual scope,
objectives and methodologies of our review(s) are included in the audit report section for each
platform or system that we reviewed.

We conducted this review in accordance with Generally Accepted Government Auditing
Standards for Performance Audits and accordingly, we performed such tests and other auditing
procedures as necessary to meet the review objective. A review of the entire internal control
structure was not required for the scope of this audit.

We performed fieldwork from March through June 2004 at SBA headquarters located in
Washington, D.C., and at Cotton & Company’s Alexandria, Virginia, office.

SUMMARY OF FINDINGS AND RECOMMENDATIONS

SBA’s computer general support systems and components (UNIX Solaris, Internal and AT&T
Checkpoint Firewalls, and Cisco Routers) contained a number of vulnerabilities which increase
the potential for security exposures to exist and go undetected. Additionally, SBA’s general
support systems and components (UNIX Solaris, Internal and AT&T Checkpoint Firewalls, and
Cisco Routers) did not follow a standard system configuration. This generally occurred because
SBA had not implemented standard configurations for its general support computer operating
systems and components. Nor had SBA ensured that changes to the system configurations were
made in a controlled manner. As a result, SBA’s general support computer operating systems
were potentially vulnerable to unauthorized utilization or inefficient operation.

We recommend that SBA take actions to minimize the risk of security deficiencies by correcting
the weaknesses disclosed in this report. Specific recommendations for resolving these
weaknesses are detailed in the results section of this report. Due to the types of vulnerabilities
identified, certain recommendations are made to SBA systems as a whole including contractor
operated systems to ensure that vulnerabilities identified in this report may be addressed within
the Agency for all related computer systems and platforms.
                                                     Attachment A


                               REPORT DISTRIBUTION

Recipient                                            Copies


Associate Deputy Administrator for
  Management & Administration                           1

General Counsel                                         3

General Accounting Office                               1

Office of the Chief Financial Officer
  Attention: Jeff Brown                                 1
